38

Appendix A -1

APPENDIX A
A1-A4

Lower Court decision. Court gave me two cases should

be the same case.
APPENDIX B
Bl- B5 Complaint to Equal Employment Opportunity Committee;
Complaint on page B5 tells how in 1998 Bob was promoted over ,
me for Operator Supervisor job no license. He better fit the City’s
need. They then waited for him to get his Class IH License in
2007 and promoted him within 60 days to Operations Supervisor:
I have had my Class HI since 1986; While they wouldn’t sign my
application to resubmit my Application for my Class IV Thesis
from 2010 to present.. I became eligible to apply for the Class IV
Wastewater Thesis in 2007 due to a Rule change.

39

B1 Complaint I retired in 2015, and before I retired I advised the
City I was interested in being rehired as similarly situated
employees; they did not give me an opportunity. (Pretreatment
Coordinator / Environmental Compliance Supervisor (revised job
description). They gave the job to another candidate.
The Plant Managers job then became available Bob Coker and I
both applied. They gave the job to Bob Coker who held the
Operations Supervisor Job. They did not fill the Operations
Supervisors job to deny me the opportunity to apply because I was
qualified. I held a Class III Wastewater Operator License and a
Class II Lab Analysts Certificate. A year later they gave the
Operations Supervisor job to the Environmental Compliance
Supervisor without posting the job and did not fill her position.

B2 General Information about me and the Employer

40

B3 - B4 Reason for Discrimination, Race, Sex, Retaliation and
Disability.
The disability was being a woman and the City not making the
men do their jobs. When a woman is given an opportunity she
needs Upper Management support and Supervisory Tools, right to
discipline and evaluate employees to correct unsatisfactory
behaviors and incompetence.
B5 Complaint on page B5 tells how in 1998 Bob was promoted
over me for Operator Supervisor job no license. He better fit the
City’s need. They then waited for him to get his Class III License
in 2007 and promoted him within 60 days to Operations Supervisor:
I have had my Class III since 1986; While they wouldn’t sign my
application to resubmit my Application for my Class IV Thesis
from 2010 to present.. I became eligible to apply for the Class IV
Wastewater Thesis in 2007 due to a Rule change.

41

APPENDIX C
Appendix C 1 -20 Original Complaint Filed at the Franklin
County Court of Common Pleas Court
C-21 - C25 Court required Explanation of documentation included
in initial complaint.
APPENDIX D
D1 - D4

From Mr. Remy saying he was not aware that Marc

picked up files at the Commence Center. I enclosed the emails to
Mr. Remy and he was aware that Marc had them pick up the files
and he said it was not the City’s responsibility to provide me with
the information to
Show I was in charge to resubmit my Class IV Wastewater Thesis.
D5 - D5c Shows I initially applied for Wastewater Thesis on 8-72007.

42

D6 - D7 Applied for Second Section of Application on April 12,
2007, recommended for failure because I was missing information
that the Ohio Environmental Protection Agency wanted included.
Reapplied on 7/13/2011, Marc was mad at me and wouldn’t sign
my application.
D8 - D8 Since Marc didn’t want to sign my Application he called
Columbus and talked to Susan
Perkins and she said he shouldn’t sign it because he wasn’t there
during that time. No management personnel that were employed
during that time period was there. So who signs my application?
He signed it the first time so he should of signed it the second time
(retaliation)?
D9 - D9 The Attorney General said if the City did not admit I
was second in command they would not be able to settle the
request for adjudication in my favor.

43

DIO - Dll I called the Ex City Engineer who was employed by
the County and he sent a email telling them I was second in
command and they still would not sign my application.
(Retaliation)?
D12 _D13b They denied my second submittal of my Class IV
because the City would not admit I was second in command. They
wanted me to file an appeal against Ohio Environmental Protection
Agency for 70 dollars by February 18, 2012,1 opened the letter
after that date and I did not have the seventy dollars and did not
want to sue the Ohio Environmental Protection Agency it was the
City who would not tell them I was second in command. In
paragraph number 13 they said if and when the City provided
information that I had two years of management experience I
could re file a new application. I have the experience and the City
won’t provide the documentation.

44

D14 thru D 18a Documentation stating I was second in command
from Mr. Jim Lichtenwalter, Ex Chief City Engineer for the City
of Mansfield.
D19 - D20 Lab and Operator Certification cards.
D21 - D24 Signed Absence Reports and Sick Slicks for
Employees: Ed LeMaster, Ctto Kulda and Bob Coker who were
later promoted into Management. These documents show I was in
charge because if I wasn’t in charge I would have not signed their
absence reports.
D25 - D25 I asked for Records request for someone to search
personnel files and find sick slips that I signed for employees.
They did not do it. I gave Management the ones I had in my
possession and they still wouldn’t sign my Application.
D26 -d26 Letter from Attorney General Office to see how the City
was coming in providing me the information to show I was in
charge. They did not give it to me (Retaliation)

45

D27 - D271 sent a letter to Samuel Wilson at Ohio Environmental
Protection Agency asking them to leave my case open until the
City provided me the Information.
D28 - D29 Over List for Operators in 1996 where I called in
employee to work on Thickener Sludge Pump and Ed LeMaster
called off and Carl Morgan worked. This was before Ed became
Management
Appendix E
El - E4

Motioned the Court for an extension of time to file

documents and a Trial by Jury if not awarded Summary Judgement.
Appendix F
FI - FI Case originally filed in Franklin County Common Please
Court
F2 - F3 The City submitted their answer in defenses under Perjury,
Fraud, and subornation of Peijury denied all allegations and that

46

plaintiff is not entitled to relief. (Bad Faith Affadavit Rule 56 G
Summary Judgement)

F4 - f6 Documents to court on Defendants answering complaint
under Peijury.
F7 - F8 Franklin County Transferred my case to Richland County
and I objected.
F9 - F10 Motion for Summary Judgement in the relief of 400,000
dollars,. Three Hundred Thousand for Punitive and Compensatory
damages and 100,000 for attorney fee: and Trial by Demand if
Summary Judgement not granted.
APPENDIX G
G1 - G4 Motion for Reconsideration, stay to obtain an Attorney,
extension of time to file documents, notation to court that I do
want to prosecute case.

47

G5 - G8 Charge of Discrimination , indication that I motioned the
court for a trial by jury and it was not provided.
G9 - G 14 Brief to Fifth District Court of Appeal
G 15 Exhibit A1 through a61 Documents in Support of the Brief
APPENDIX H
HI - HI 2 Assignments of Error for Judge
Exhibit A A1 - A43 in support of Error
APPENDIX I
11-15 Notice of Appeal to Ohio Supreme Court
16-112 Memorandum in Support of Jurisdiction

<*

©Ip j^iprrzmz ©curt erf ®lpn

FILED
JAN 22 JE1
clerk of court

SUPREME COURT OF OHIO

' Case No. 2G20-1378

CadmeM. Cany

ENTRY

y.

City of Mansfield, et aL
Upon consideration of'the jansdiefional mai i iOi.anda filed in this case, the coart
declines to accept jurisdiction of the appeal porsnant to S.CLPracJR 7.08(B)(4).
(Richland County Conrt of Appeals; No. 2020 GA 00005)

UUXjLt-4-

J

Manreen O* Connor
Chief Justice

The Official Case Announcement can be found at http://www-snpremecoiirt.Dliio.gov/ROD/docs/

M

ri

Filed Novemb^^ 2020 - Case No. 2020-1357

$

"i

;1••3k V
.5

COURT OF APPEALS
RICHLAND COUNTY, OHIO
FIFTH APPELLATE DISTRICT

i

C0UR1 or
.
RIGHLANO COUNTY 0H!o
FILED

2020 OCT -b A 8^29

CARLINE M. CURRY,

LW0AH. FRARY
CLERK OF COURTS

Plaintiff - Appellant
1
!

I

JUDGMENT ENTRY

-vsCITY OF MANSFIELD, et al..

Case No. 2020 CA 00005

Defendant — Appellee
This matter comes before the court on the motions of appellant. The first
motion, filed September 15, 2020 contains a caption that Is more a narrative and does
not encapsulate the nature of the motion aside for oblique requests for an extension of
time to obtain an attorney and “correct brief.” Appellant concludes
this motion by
requesting reconsideration and extension of time to correct deficiencies.
The second motion also contains a lengthy caption regarding "reversal and reopen
case," “awarding summary judgment,” and “motion for leave to file document to cure brief
deficiencies. Appellant’s motion rehashes her argument for an award of
summary
judgment and appellant has attached several pages of documents that are not referen
ced
In the body of the motion.
We have not received a response from the appellee.
Appellant's motions, taken in the context of the status

of the case, can only be

considered as an application to reconsider our decision to dismiss her appeal for failure
to prosecute, journalized on August 17, 2020 and delivered to the parties on August 19,
2020.
E
I

I
b
l:

-'■t

la
J
i

Oct 05 2020 1637 Fifth Dlslrict 3302449810

page 2

1

I

i

I
3

Appellate Rule 26 addresses applications for reconsiderati

on and states in relevant

part that ‘Application for reconsideration of any

!

cause or motion submitted on appeal
shaH be made in writing no later than ten days after the dark has bath mailed t
o the parties
the judgment or order in question and made
a note on the docket of the mailing as
required by App. R. 30(A).’ While it does control the timing of the application, App
. R. 26
does not provide specific guidelines
to determine whether a decision should be
reconsidered or modified. The test
generally applied is whether the motion for
reconsideration calls to the attention of the court an obvious error in its decision
or raises
an issue for our consideration that was either not considered
at all or was not fully
considered by us when it should have been.’
Corporex Dev. & Construction Mgt, Inc. v.
Shook, Inc., 10th Dist Franklin No. 03AP-269. iOM-OhMyiS.^WqucUng
v. Matthews (1981), 5 Ohio App.3d 140, 143,450 N.E.2d 278.
Appellant’s application was due on or before August 29, 2020, but was filed
September 15th and 18th, and is therefore seriously delinquent Because Appellant has
not shown good cause for the late filing, the application for reconsideration is denied.
Even If we wane to consider the motion on the merit,, the application would be denied „
appellant has neither called to the court's attention

an obvious error in its decision nor
raised an issue for our consideration that was either not
considered at all or was not fully
considered when it should have been.

f

I

Application denied.

f

CERTIFICATE OF SERVICE
I hereby certify that a true ami correct copy
of the foregoim.* was served according to
appellate rules a ml l»\
ETRcgular Mail.
Cy Placed in C ounsel's box in Clerk of Courts
this Up day Ilf CXX

HON. CRAIG R. BALDWIN

t

f
l

t

Clerk of Co

C ^'

Cw/it^Guu/vs-^

i

f

I

i

i

i

foyJjfc*\

1

Supreme2Court of Ohio Clerk

doui?-ftlefl

0,^6% - C?i48€ffc. 2(^£1§J^8Tver

104517249 Fifth District 8

tP.pQLlNT'-1 -■ :
FIL£Q 1 U-:‘U

ms MJS / g

COURT OF APPEALS
RICHLAND COUNTY, OHIO
FIFTH APPELLATE DISTRICT

CARLINE M. CURRY,
Plaintiff - Appellant
-vsCITY OF MANSFIELD, et al..
Defendant - Appellees

.

JUDGES:
Hon. William B. Hoffman, P.J.
Hon. Patricia A. Delaney, J.
Hon. Craig R. Baldwin, J.

Case No. 2020 CA 0005
OPINION

CHARACTER OF PROCEEDING:

Appeal from the Richland County
Court of Common Pleas, Case No.
2018 CV 0642

JUDGMENT:

Dismissed

DATE OF JUDGMENT:

APPEARANCES:
For Plaintiff-Appellant

For Defendant-Appellees

CARLINE CURRY, Pro se
606 Bowman Street
Mansfield, Ohio 44903

GREGORY A. BECK
ANDREA K. ZIARKO
Baker, Dublikar, Beck,
Wiley & Mathews
400 South Main Street
North Canton, Ohio 44720

)

RULE 58 (B) NOTICE
THIS JUDGMENT WAS ENTERED ON.THE
COURT'S JOURNAL „

iff lQ2&

ON
BY

l1
Richland County Clerlcof Courts
Deputy Clerk

P * 3i

Fax-02

8/18/2020 3:24:25 PM

PAGE

4/008

Fax Server

104517249 Fifth District 8

Richland County, Case No. 2020 CA 0005

2

Baldwin, J.
{TP}

Appellant, Carline Curry appeals the decision of the Richland County Court

of Common Pleas dismissing her complaint. Appellees are the City of Mansfield, Angelo
Klousiadis, Dave Remy and Timothy Theaker.

STATEMENT OF FACTS AND THE CASE
{1f2}

Appellant filed a complaint in the Franklin County Court of Common Pleas

alleging discrimination and retaliation by appellees. The case was transferred to the
Richland County Court of Common Pleas and thereafter the parties exchanged pleadings,
Curry seeking summary judgment and appellees seeking judgment on the pleadings as
well as summary judgment.

The trial court found that Curry had made the same

allegations in a prior case, Richland County Court of Common Pleas Case No. 17-CV426 and that case was dismissed with prejudice and all appellate rights were exhausted.
The trial court found Curry’s claims in this case barred by res judicata, collateral estoppel,
as well as issue and claim preclusion.
{1J3}

The trial court also found that Curry failed to describe dates for the alleged

continuing discrimination, preventing any analysis of the applicable statute of limitations
and that she failed to state a claim for which relief may be granted. The trial court found
that Curry:
failed to establish in her complaint that the Defendants individually were her
employers, that she was a part of a protected class, and that she was
discharged from a job or that she was not hired for a job that she was
qualified to hold and was replaced by a person who did not belong to the
protected class. Nor has she established in her complaint that she engaged

Fax-02

8/18/2020 3:24:25 PM
104517249 Fifth District 8

PAGE

5/008

Fax Server

Richland County, Case No. 2020 CA 0005

3

in protected activity and that she was, as a result, subject to adverse
employment action.
{114}

The trial court denied Curry’s motion for summary judgment and granted

appellees motion for judgment on the pleadings and summary judgment. Curry appealed,
but has not submitted any assignments of error.
(ITS}

Curry has not only neglected to include assignments of error in her brief,

shehas also substantially failed to comply with the requirements of App.R. 16. The brief
lacks^ajable of contents, a table of cases cited, a statement of the issues presented for
review, a statement of the case briefly describing the nature of the case, the course of
proceedings, and the disposition in the court below. While she refers to past incidents
and events from prior cases, the haphazard nature of the statements prevent us from
discerning a.-stajement of facts relevant to the assignments of error presented for review,
and the brief does not contain an argument of her contentions with citations to the
authorities, statutes, and parts of the record on which appellant relies.
»——

{1f6}

‘

™

~

'

“

“

'

~

Pursuant to App.R. 12(A)(2), we are not required to address issues which

are not argued separately as assignments of error, as required by App.R. 16(A). Kremer
v. Cox, 114 Ohio App.3d 41,60, 682 N.E.2d 1006 (1996), Hawley v. Ritley, 35 Ohio St.3d
157, 159, 519 N.E.2d 390 (1988). Such deficiencies permit this court to dismiss
appellant's appeal. State v. Darby, 5th Dist. Richland No. 2019 CA 0013, 2019-Ohio2186, 1ffl 21-24. We understand that appellant has filed this appeal pro se. Nevertheless,
“like members of the bar, pro se litigants are required to comply with rules of practice and
procedure.” Hardy v. Belmont Correctional Inst, 10th Dist No. 06AP-116, 2006-Ohio—
3316, U 9. See, also, State v. Hall, 11th Dist. No.2007-T-0022, 2008-0hio-2128,

11.

Fax-02

8/18/2020 3:24:25 PM
<04517249 Fifth District 8

Richland County, Case No. 2020 CA 0005

PAGE

6/008

Fax Server

4

And we recognize “an appellate court will ordinarily indulge a pro se litigant where there
is some semblance of compliance with the appellate rules” Oyler v. Oyler, 5th Dist. Stark
No. 2014CA00015, 2014-Ohio-3468,

18-19, but we find significant noncompliance

with the appellate rules in the case before us as well as a lack of any cogent argument.
While we note that fairness and justice are best served when a court disposes of a case
on the merits we find that this brief reflects a flagrant, substantial disregard for the court
rules that cannot be cured., DeHart v. Aetna Life Ins. Co., 69 Ohio St.2d 189, 193, 431
N.E.2d 644 (1982), and we "may not construct legal arguments in support of an
appellant's appeal.” Whitehall v. Ruckman, 10th Dist. No. 07AP-445, 2007-0hio-6780,
If 20, quoting State ex rel. Petro v. Gold, 166 Ohio App.3d 371, 2006-Ohio-943, If 94
(10th Dist), appeal not allowed, 110 Ohio St.3d 1439, 2006-0hio-3862, reconsideration
denied. 111 Ohio St.3d 1418, 2006—Ohio—5083. Appellant’s brief in this case is so lacking
in substance as to be of no legal consequence. Byrd v. Byrd, 10th Dist. Franklin No.
13AP-943, 2014-Ohio-2082, Iffl 5.

Fax-02

8/18/2020 3:24:25 PM

PAGE

7/008

Fax Server

(04517249 Fifth District 8

Richland County, Case No. 2020 CA 0005

{117}

5

Because we find appellants' brief so completely in derogation of App.R. 16,

her appeal is dismissed for want of prosecution pursuant to App.R. 18(C) and LocAipp.R.
5(B).
By: Baldwin, J.
Hoffman, P.J. and
Delaney, J. concur.

HON. CRAIG R. BALDWIN
) /

*1=

HON. WILLIAM B. HOFFM^gf/

,

CRB/dw

HON. PATRICIA A. DELANEY

\

Additional material
from this filing is
available in the
Clerk's Office.

